IN THE SUPREME COURT OF THE UNITED STATES

HARDEN, DONALD S.
Petitioner
vs.

No:

20-1765

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
June 24, 2021
cc:
EDWARD KING POOR
QUARLES & BRADY LLP
300 NORTH LASALLE STREET
SUITE 4000
CHICAGO, IL 60654
JAMES E. GOLDSCHMIDT
QUARLES & BRADY LLP
411 EAST MILWAUKEE AVENUE
SUITE 2400
MILWAUKEE, WI 53202

